 Office of the Inspector General
T e n n e s s e e Va l l e y A u t h o r i t y




                 Semiannual Report
                     October 1, 2006 ~ March 31, 2007
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
inspections, and investigations.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse;
(2) violations of laws, rules, or
regulations; and (3) inefficiencies in
TVA programs and operations.
                                    Tennessee Valley Authority
                                   Office of the Inspector General



          Message From the Inspector General

          This report to the TVA Board and to Congress concludes a full year for the newly constituted TVA Board
which was sworn in on March 31, 2006. Legislation signed by President Bush in 2004 expanded the Board from
three full-time members to nine part-time members with a full-time chief executive officer to run TVA on a day-to-
day basis. As Director Skila Harris recently noted in an address to the TVA OIG, this change amounted to a
“reinvention” of the TVA Board. Director Harris noted the differences in her role as one of the previous full-time
Board members to her current service with her fellow part-time Board members. She also aptly noted that while
most of the new Board members were familiar with independent auditors in private sector corporations, they had
not worked before with Inspectors General.

          As this year concludes a full year of service for the new Board, it seems appropriate to offer some
observations about how this new structure has worked thus far. First, I heartily agree with Director Harris’
assessment that the current Board has exhibited a commitment to TVA’s best interests with the level of
professionalism they have brought to their work. Secondly, this Board is keenly interested in the OIG providing
objective and accurate reports about TVA issues. While it is true, as Director Harris noted, that many of the
current Board members have not worked with an Inspector General previously, all of the Board members have
demonstrated a respect for the independence of the OIG and concomitantly recognized the service that the OIG
can provide to the Board. The OIG is being asked both by the TVA Board and the Chief Executive Officer to
assist in assessing complex issues to ultimately make life in the Tennessee Valley better for everyone. Finally, this
Board has shown an appreciation for the duty the OIG has to make public findings that identify problems at TVA.

           With each of these letters that I write to the Board and to Congress, I am sensitive to the
self-congratulatory tone they can have. I have been reminded appropriately, however, that our reason for existing
is performance. This semiannual report speaks for itself and demonstrates the commitment and professionalism
the OIG staff has to making TVA better. Each finding, recommendation, and dollar saved represents the fine
efforts of a staff devoted to higher performance.

         Therefore, it is with great pride that I submit this report to you highlighting the work done by the TVA
OIG for the past six months.




                                                                                                 Richard W. Moore
                                                                                                  Inspector General
                                                                                                      April 1, 2007
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      5

Special Features                                                                                    11

Audits                                                                                              15

Inspections                                                                                         21

Investigations                                                                                      24

Legislation and Regulations                                                                         34




Appendices                                                                                          36


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          37


Appendix 2 Audit Reports Issued                                                                     38


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   40


Appendix 4 Audit Reports With Corrective Actions Pending                                            42


Appendix 5 Investigative Referrals and Prosecutive Results                                          44




Highlights                                                                                          45




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, inspections, and investigations. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified over $10.5 million in
recoveries, fines/penalties, potential savings, questioned costs, or funds which could be
put to better use, as outlined in the chart below.



                                 STATISTICAL HIGHLIGHTS
                  October 1, 2006 ~ March 31, 2007
                    Audit Reports Issued                                 18
                    Questioned Costs                             $1,252,456
                       Disallowed Costs*                         $1,429,334
                       Funds Recovered                             $694,984
                    Funds Put to Better Use                      $8,913,475
                       Funds Realized by TVA                     $3,603,475
                    Investigations Opened                                73
                    Investigations Closed                                50
                    Fines/Recoveries/Restitution/Savings           $430,684
                    Criminal Actions                                      4
                    Administrative Actions (No. of Subjects)              4
                    Inspections Completed                                 7

                *Disallowed costs exceed questioned costs because disallowed
                 costs include management decisions within this reporting period
                 on questioned costs from prior periods.




Our 18 audits and 12 other audit-related projects during this reporting period resulted in
questioned costs, funds to be put to better use, and the identification of areas for
process and control improvements. Highlights include (1) contract audits which
identified over $1.2 million in questioned costs and $8.9 million in funds which could be
put to better use, (2) information technology (IT) audits which identified needed control
improvements, and (3) financial-related and operational reviews which identified areas
for improving control documentation and effectiveness. TVA management used
information from our audits to recover about $.7 million and negotiate about $3.6 million
in contract cost savings.




page 1                                                           October 1, 2006 ~ March 31, 2007
                                                             Executive Summary



Our Inspections unit completed seven projects which identified several opportunities for
improved program operations. Inspection topics include inventory accounting
practices and controls over milestone-driven performance awards at the Browns Ferry
Nuclear Plant (BFN), coal royalty receipts, and the accuracy of daily coal weights
recorded at 9 of TVA’s 11 fossil plants.

Investigations highlights include (1) use of technology to proactively detect and
prosecute fraud, including data mining, cyber security, and computer forensics; (2) other
proactive efforts to reach out to employees and others to make OIG more accessible;
and (3) recoveries or avoided costs which totalled over $400,000.

We also are providing support for TVA’s Audit and Ethics Committee, and we have
several initiatives underway to improve office efficiency. These initiatives include
implementing High Performance Organization principles, process improvements,
telework, and upgrading office automation.

                                                                          Definitions
                                                              Q u e s t i o n e d C o s t s - Costs that
                                                              are unnecessary, unreasonable,
                                                              unsupported, or an alleged
                                                              violation of law, regulation,
                                                              contract, etc.
                                                              F u n d s P u t t o B e t t e r U s e - Funds
                                                              that could be used more
                                                              efficiently by implementing
                                                              recommended actions.
                                                              D i s a l l o w e d C o s t s - Questioned
                                                              costs that management agrees
                                                              should not be charged to TVA.




TVA Office of the Inspector General                                                        page 2
          T VA P r o f i l e



          TVA has now completed its transition from a full-time three-member Board of Directors
          actively managing TVA to a part-time nine-member Board that is more of a policy
          making body. With the resignation of a Board member during January 2007, however,
          there are currently only eight Board members. The new Board appointed TVA’s first
          Chief Executive Officer, Tom D. Kilgore, on October 13, 2006.

          Below are some highlights of TVA history and operations.

           TVA was created during 1933. President

               Franklin Roosevelt asked Congress to
               create “a corporation clothed with the power
               of government but possessed of the flexibility
               and initiative of a private enterprise.” On
               May 18, 1933, Congress passed the TVA
               Act, creating TVA as a federal corporation.
               TVA’s threefold mission includes power
                                                                                President Roosevelt signed the legislation
               production, environmental stewardship, and                                 creating TVA in 1933.

               economic development.

           Today, TVA is the nation’s largest public power company. TVA’s revenue totalled

               $9.2 billion in fiscal year (FY) 2006. TVA’s power facilities include 11 fossil plants,
               29 hydroelectric dams, 3 nuclear plants, 6 combustion turbine plants, a pumped-
               storage facility, and 17,000 miles of transmission lines. TVA also produces energy
               from three renewable sources––sun, wind, and methane gas from waste. The TVA
               service area covers 80,000 square miles in the Southeastern United States, including
               almost all of Tennessee and parts of Mississippi, Kentucky, Alabama, Georgia, North
               Carolina, and Virginia. By providing wholesale power to 158 municipal and
                                            cooperative power distributors, and by directly serving 62 large
                                            industries and federal facilities in the Valley, TVA
                                            supplies the energy needs of 8.7 million people.



TVA provides electricity in seven states.




           page 3                                                               October 1, 2006 ~ March 31, 2007
                                                                         T VA P r o f i l e



 As a regional development agency, TVA supplies affordable, reliable power; supports

   the nation’s fifth largest river system, the Tennessee river system; and promotes
   economic development. TVA dams are part of a totally integrated resource
   management system for a 41,000-square-mile watershed where each dam operates
   in relationship to the others for multiple purposes and public benefits, including flood
   control, maintaining navigation, providing recreational opportunities, and protecting
   water quality.




                                                                          TVA dams produce electricity
                                                                           and provide flood control.




TVA Office of the Inspector General                                                     page 4
Office of the Inspector General



Office Authority

Created by the TVA Board of Directors in 1985, the TVA OIG became statutory under
the Inspector General (IG) Act Amendments of 1988. The authority to appoint the TVA
IG was transferred to the President in November 2000 by Public Law No. 106-422.
The IG is responsible for conducting audits and investigations relating to TVA programs
and operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board.


OIG RESPONSIBILITIES

 Promote economy and efficiency while preventing and detecting fraud, waste, and

   abuse.

 Conduct and supervise audits and investigations relating to TVA programs and

   operations.

 Keep the TVA Board and Congress fully and currently informed concerning fraud and

   other serious problems, abuses, and deficiencies relating to TVA programs and
   operations.

 Recommend corrective actions concerning problems, abuses, and deficiencies, and

   report on the progress made in implementing such actions.

 Assure work performed by non-federal auditors complies with government

   auditing standards.

 Issue semiannual reports to TVA Board and Congress.


OIG AUTHORITIES

 Conduct any audit or investigation the IG deems necessary or desirable.

 Access all TVA records or other material.

 Issue subpoenas and administer oaths.




page 5                                                      October 1, 2006 ~ March 31, 2007
                                           Office of the Inspector General



 Receive complaints and grant confidentiality.

 Have direct and prompt access to the TVA Board.

 Hire employees and contract for services as necessary.


Organization

The OIG’s primary location is adjacent to the TVA headquarters in Knoxville,
Tennessee. To obtain broader coverage throughout the Valley, the OIG also has
Investigations offices in Mayfield, Kentucky, in Chattanooga, Tennessee, and at
BFN near Athens, Alabama, as well as an Inspections unit located in
Chattanooga. The OIG consists of three primary components: (1) Audits,
(2) Inspections, and (3) Investigations.
                                                                                       The OIG is primarily
                                                                                        located in the TVA
                                                                                       Towers in Knoxville.
OIG STRATEGIC PLAN

VISION

To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of TVA’s programs
and operations.

MISSION

Promote excellence in TVA’s operations through the conduct of investigations, audits,
inspections, and advisory services designed to promote economy, efficiency, and
effectiveness and prevent and detect fraud, waste, and abuse.

LEADERSHIP PHILOSOPHY

The TVA OIG strives to be a high performing organization made up of dedicated
individuals who are empowered, motivated, competent, and committed to producing
high quality work that improves TVA and life in the Valley. Each of us has important
leadership, management, team, and technical roles. We value integrity, people, open
communication, expansion of knowledge and skills, creative problem solving, and
collaborative decision-making.




TVA Office of the Inspector General                                                  page 6
Office of the Inspector General



STRATEGIC GOALS

         PERFORMANCE              WORKFORCE                    S TA K E H O L D E R
          Perform timely            Cultivate and                Effectively
           reviews that            retain a highly            communicate with
             address                   skilled,               stakeholders and
           stakeholder            innovative, and              deliver services
          concerns and               motivated                 that meet their
         areas of highest            workforce                      needs
                risk



STRATEGIC OBJECTIVES

   Focus efforts on areas     Hire and retain the            Manage stakeholder
    of highest impact and       best                            perceptions of the
    risk                       Manage pay to stay              OIG to promote
   Ensure processes are        competitive with target         ( 1 ) h i g h c r e d i b i l i t y,
    efficient and effective     market                          and (2) independence
   Maintain highest levels    Develop staff to                and objectivity
    of quality                  achieve the highest            Respond to customer
   Stay abreast of             level of capabilities           needs
    emerging issues and        Motivate staff to excel        Improve stakeholder
    industry trends            Ensure accountability           awareness of OIG
   Stay abreast of             in individual                  Ensure stakeholders
    stakeholder concerns        performance                     are kept informed
   Continue to develop        Promote a                      Ensure stakeholders
    innovative methods for      balanced lifestyle              have an opportunity to
    fraud detection                                             provide input in the
                                                                annual audit planning
                                                                process and each
                                                                i n d i v i d u a l r e v i e w, a s
                                                                appropriate
                                                               Increase effectiveness
                                                                of OIG hotline




page 7                                                    October 1, 2006 ~ March 31, 2007
                                          Office of the Inspector General



AUDITS

Audits conducts and/or supervises comprehensive financial and performance
audits of TVA programs and operations. Based upon the results, Audits
makes recommendations to ensure that program objectives and operational
functions are achieved effectively and efficiently. Audits develops a plan
annually to achieve the most beneficial allocation of resources. The annual
plan addresses those issues, programs, operations, and activities that have
the greatest likelihood of placing TVA at risk for fraud, waste, abuse, or in
regards to IT, malicious or other intrusion.

Audits consists of three departments––Contract Audits, Financial/Operational Audits,
and IT Audits.

 Contract Audits has lead responsibility for contract compliance and pre-award

   audits. In addition, this group performs reviews of TVA contracting processes and
   provides claims assistance and litigation support.

 Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial

   statement audit and related services performed by TVA’s external auditor; (2) reviews
   of TVA’s internal controls related to financial reporting, operational efficiency, and
   compliance with laws and regulations; and (3) operational reviews to assess the
   results and economy and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.




TVA Office of the Inspector General                                                       page 8
Office of the Inspector General



INSPECTIONS

The Inspections unit was formed at the beginning of FY 2004. Inspections provides
flexibility to conduct limited scope policy and program evaluations to promote economy
         and efficiency in the management and administration of TVA programs. In
         accordance with the Quality Standards for Inspections, the objectives of the
         Inspections unit include providing a source of factual and analytical
         information, monitoring compliance, measuring performance, assessing the
         efficiency and effectiveness of operations, and/or conducting inquiries into
         allegations of fraud, waste, abuse, and mismanagement.


INVESTIGATIONS

Investigations conducts and coordinates investigative activity related to fraud, waste,
and abuse in TVA programs and operations. The activities investigated include possible
wrongdoing by contractors, employees, and economic development
loan recipients. Investigations maintains liaisons with federal and state
prosecutors and reports to the Department of Justice whenever the
OIG has reasonable grounds to believe there has been a violation of
federal criminal law. Investigations works with other investigative
agencies and organizations on special projects and assignments,
including interagency law enforcement task forces on terrorism, the environment, and
health care.


THE OIG HIRES A COMMUNICATIONS SPECIALIST

     As part of the OIG’s goal to become a higher performing organization, Stefanie
     Hoglund was recently hired as a communications specialist. She will oversee
     media relations and communications planning for the OIG.

     Ms. Hoglund, who formerly served as the Public Information Officer for the Knox
County Health Department and the East Tennessee Regional Health Office, has a
master’s degree in Health Education and a bachelor’s degree in Communications, both
from The University of Tennessee.



page 9                                                     October 1, 2006 ~ March 31, 2007
                                                              Office of the Inspector General




                                                    Inspector General




                          Legal Counsel




                                                                                                          Assistant Inspector
             Assistant Inspector
                                                                    Assistant Inspector                         General
                   General
                                                       Deputy             General                          (Administration &
                  (Audits &                           Assistant       (Investigations)                       Government
                Inspections)                          Inspector                                               Relations)
                                                       General
                                                    (Inspections)
                          Contract Audits
                                                                                  Supervisory                               Human
                             Director
Audit Quality                                                                    Special Agent                             Resources
 Manager                                                                                                                    Manager
                            Financial/
                           Operational
                                                                                  Supervisory                            Communications
                          Audits Director
                                                                                 Special Agent                             Specialist

                           Information
                           Technology
                          Audits Director



                                                       Contacts

Inspector General                                                       Audit Quality Manager
Richard W. Moore . . . . . . . . . . . .(865) 632-4120                  Louise B. Beck . . . . . . . . . . . . . .(865) 632-2622

Legal Counsel                                                           Contract Audits Director
Richard P. Levi . . . . . . . . . . . . . . .(865) 632-3956             David P. Wheeler . . . . . . . . . . . . .(865) 632-4770

Assistant Inspector General (Audits &                                   Financial/Operational Audits Director
Inspections)                                                            Vacant . . . . . . . . . . . . . . . . . . . . .(865) 632-2272
Ben R. Wagner . . . . . . . . . . . . . . .(865) 632-2272
                                                                        Information Technology Audits Director
Deputy Assistant Inspector General                                      Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730
(Inspections)
Gregory C. Jaynes . . . . . . . . . . . .(423) 751-7821                 Supervisory Special Agent
                                                                        Curtis D. Phillips . . . . . . . . . . . . .(865) 632-3956
Assistant Inspector General (Investigations)
Charles A. Kandt . . . . . . . . . . . . .(865) 632-3956                Supervisory Special Agent
                                                                        C. Dale Hamilton . . . . . . . . . . . . .(865) 632-3956
Assistant Inspector General (Administration
& Government Relations)                                                 Human Resources Manager
Ronald Wise . . . . . . . . . . . . . . . . .(865) 632-4752             Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718

                                                                        Communications Specialist
                                                                        Stefanie D. Hoglund . . . . . . . . . .(865) 632-2233



                                    OIG website: http://oig.tva.gov



TVA Office of the Inspector General                                                                                       page 10
Special Features



OIG Works with TVA Audit Committee

In December 2004, President Bush signed the 2005 Consolidated Appropriations Act,
which included legislation to expand TVA’s Board from three full-time to nine part-time
members. That Act also required TVA to establish an Audit Committee. The
Committee, formally titled the Audit and Ethics Committee, held its first meeting in
June 2006.

Since the Committee’s formation, it has relied on the IG to review internal control and
financial reporting practices and keep it apprised of any violations of law by employees,
significant deficiencies in controls, and aggressive accounting practices. The
Committee also is responsible for recommending to the Board, in consultation with the
IG, the external auditor who is responsible for the annual financial statement audit and
quarterly review of TVA financial information. The IG meets with the Committee at least
quarterly to inform members of audits planned, initiated, and completed. Also
addressed are any violations of law, including fraud, detected by the OIG.


OIG Internal Enhancements

As discussed below, our efforts to enhance OIG performance include implementation of
High Performance Organization (HPO) principles, process improvements, telework, and
upgrading office automation.


HPO IN ACTION

We continue implementation of HPO principles, which are centered on using a
diagnostic/change model to build a high performing organization. This initiative, started
in August 2005, is intended to improve OIG performance by helping us focus on topics
such as vision, values, leadership, work product, and results.

Since the inception of HPO, OIG employees representing all levels of the organization
generally have met monthly as a Leadership Council to help make HPO a way of life in
the OIG. Examples of HPO in action include (1) defining vision, values, and organization




page 11                                                   October 1, 2006 ~ March 31, 2007
                                                                Special Features



philosophy; (2) increasing flexibility/innovation such as in work schedules and openness
to doing things differently; (3) improving teamwork by eliminating silos within and across
organizations; (4) promoting leadership roles for everyone in the office; and
(5) developing a better line-of-sight between each individual’s work and OIG goals.
These principles have been embedded through revisions to our performance appraisals,
changes to the career path, and incorporation in our business plans.


PROCESS IMPROVEMENTS

One major element of HPO is process improvements. We challenge each person in the
OIG to constantly examine the way we do business and suggest better methods as we
work to eliminate the “we’ve always done it this way” mentality. We adopted a
mechanism for submitting process improvements to ensure they receive consideration
at the Assistant IG level. Suggestions include improving teamwork accountability,
creating an internal discussion board, improving database information, and enhancing
technology.


TELEWORK

As another HPO initiative, we are moving toward extended telework. We envision
giving employees the ability to telework three or more days per week. By using
results-based management, we believe this initiative will lead to improved office
performance.

Our initial pilot program will involve 11 volunteers from Audits and Investigations who
will telework at least 3 days a week and share cubicle space when they are in the
office. Through this pilot program, we hope to ensure appropriate technology
support is in place and to identify any barriers or impediments to an effective telework
program.




TVA Office of the Inspector General                                                 page 12
Special Features



UPGRADING OFFICE AUTOMATION

We have upgraded office automation. We were using two different systems––a project
management system plus a document management system––and a lot of paper to
accomplish our mission.

Our goal was to use just one on-line system that would meet both project and
document management needs. After a review of several software packages, we
purchased a system which allows us to do both project and document
management––a one-stop shop for all information on a project.

The system also allows us to move from hard copy work papers to electronic work
papers. We have moved investigations, legal, administrative, and audit files to this
system, which also supports our telework initiative.


Contract Audits & Procurement––A Continuous
Improvement Process

Contract Audits works with TVA Procurement to improve the TVA contracting process.
Our role includes conducting pre-award and contract compliance audits, providing
advice to TVA Procurement officials, and conducting process reviews. Procurement, in
turn, acts on our findings and recommendations through negotiating cost savings for
TVA and implementing process improvements. While we are organizationally and
functionally independent, we work together with Procurement to maximize the positive
impact.

Over the past ten FYs, our audits have identified average cost savings of over
$30 million per year and various areas for potential improvements. During August
2006, we completed a review of TVA’s contracting process that identified several areas
where contract management could be improved for greater contractor compliance with
pricing terms and conditions. We recently began a review of TVA’s contract award
process to identify areas for improvement.




page 13                                                   October 1, 2006 ~ March 31, 2007
                                                                Special Features



Based on our audit findings, during the past two FYs Procurement has acted to recover
nearly $10 million and agreed with over $24 million in funds which could be put to
better use. During the past year, Procurement has initiated numerous improvement
efforts in TVA’s contracting process, partially in response to Contract Audit’s review of
the contracting process. These efforts include the following:

 Implemented management and peer team assessments of contract files and

   contract pricing terms and conditions;

 Developed training curriculum program tailored for new employees, supervisor

   workshops, and knowledge transfer sessions;

 Streamlined contract approval processes;

 Began identification and elimination of non-value added activities;

 Centralized tracking, document management, and processing of agency-wide

   contracts;

 Consolidated contract and contracting process information resources into one

   website;

 Increased focus on the technical contract managers in TVA’s Strategic Business

   Units through (1) reinforcement of the technical contract manager’s role by meeting
   with executive management in the Strategic Business Units; (2) standardization of
   the invoice review process and improved monitoring by Procurement’s contract
   managers; (3) improved training, access to contract process resources, and periodic
   newsletter communications; and (4) joint contract meetings for sharing lessons
   learned; and

 Implemented new software to improve administration of staff augmentation

   contracts and new accounting practices to improve tracking of all contract labor.


We will continue these joint efforts in contracts and other areas as we work with TVA to
improve program operations and effectiveness.




TVA Office of the Inspector General                                                 page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 18 audits identifying over
$1.2 million in questioned costs and over $8.9 million in funds which could be put to
better use. We also identified several opportunities for TVA to improve program
operations. Our audits include (1) pre- and post-award contract audits, (2) financial-
related audits, and (3) IT audits. We also completed 12 other audit-related projects.


PRE-AWARD CONTRACT AUDITS IDENTIFIED $8.9 MILLION
IN POTENTIAL SAVINGS OPPORTUNITIES

To support TVA management in negotiating procurement actions, we completed
pre-award audits of (1) a cost proposal submitted by a company to provide engineering
services for TVA Nuclear and (2) the indirect cost recovery rates included in a contract
with a company providing construction and modification and supplemental maintenance
services for TVA Nuclear. Our audits identified $8.9 million in potential savings
opportunities for TVA to negotiate, including reduced rates and volume discounts. TVA
has or is planning to use the results of our findings to negotiate better contract terms.


CONTRACT COMPLIANCE AUDITS IDENTIFIED $1.2 MILLION
IN QUESTIONED COSTS

During this semiannual period, we completed five contract compliance audits that
identified $1.2 million in ineligible and unsupported costs. Highlights of these audits
follow.

 We audited $18.6 million of payments TVA made to a contractor for services of TVA

   retirees who provided engineering and technical assistance to the Federal
   Emergency Management Agency (FEMA) for major disasters and emergencies. We
   found the contractor overbilled TVA an estimated $149,584 for labor, travel,
   miscellaneous costs, and administrative fees. Additionally, we noted control



page 15                                                     October 1, 2006 ~ March 31, 2007
                                                                                  Audits



   deficiencies regarding the authorization and payment of costs by the contractor to
   employees and by TVA to the contractor. The contractor stated it (1) concurred with
   our conclusions and recommendations but is continuing to find documentation that
   should reduce the overbilled amount and (2) has instituted controls regarding
   payments to employees and subsequent billing of costs to TVA.

 We audited $11.4 million of costs billed by a TVA contractor who provided

   engineering and procurement services to install NOxStar (NOx emissions reduction
   technology) at a TVA fossil plant. We determined the contractor overbilled TVA
   about $886,000 in royalty fees, labor, materials and manufacture costs, unapproved
   travel and other project costs, and overhead and general and administrative costs.
   TVA management stated they agreed with our findings and plan to pursue recovery
   of the overbilled amount.

 We audited $3.4 million of costs billed by a TVA contractor who performed surveys

   of historic properties and determined the contractor overbilled TVA an estimated
   $4,964, including overstated labor costs and unsupported and ineligible travel and
   miscellaneous costs. The contractor submitted a refund to TVA for the estimated
   overbilled amount.

 We audited $22.2 million of costs billed by a TVA contractor for construction and

   modification services for TVA generating plant switchyards, substations, electrical
   transmission system, and power control communication facilities. We found
   overbillings and overpayments of about $58,000 including (1) overbillings for small
   tools due primarily to the contractor’s application of a recovery rate to an incorrect
   cost base, (2) craft wages and benefits that exceeded amounts provided for by
   TVA’s labor agreements, and (3) miscellaneous overpaid and unsupported costs.
   The contractor and TVA management agreed with our findings except for the
   overbilled craft wages and benefits. In response to that issue, TVA management
   stated TVA Labor Relations had decided certain variances from the labor
   agreements would be allowed and most of the variances identified in this review
   were within the guidelines established by Labor Relations.




TVA Office of the Inspector General                                                 page 16
Audits



 We audited $5.6 million of costs billed by a TVA contractor for construction and

   modification services for TVA generating plant switchyards, substations, electrical
   transmission system, and power control communication facilities. We found TVA
   was overbilled an estimated $186,378 for (1) craft labor costs that exceeded
   amounts provided for by TVA’s labor agreements, (2) misclassified subcontractor
   labor, (3) ineligible subsistence allowance payments, and (4) unsupported costs. The
   contractor agreed with most of our issues and provided credits to TVA. However,
   the contractor stated it planned to perform a 100-percent review of craft labor costs
   associated with the audit period rather than rely on the audit estimate of the
   overbilling. TVA management plans to work with the contractor to recover the
   overbilled craft labor costs.

OTHER CONTRACT-RELATED AUDITS AND PROJECTS

FEMA MISSION ASSIGNMENTS

TVA provides engineering and technical assistance to FEMA for major disasters and
emergencies using TVA retirees who work for a TVA subcontractor. In April 2006, the
Department of Homeland Security requested all IG offices to perform a review of the
2005 Gulf Coast Hurricane Assignments performed by their agency. The purpose of
the audit was to evaluate their agency’s procedures pertaining to the billing and
reimbursements for FEMA mission assignments.

Our review found TVA (1) did not have adequate controls in place to ensure the
accuracy of costs TVA paid its contractor and subsequently billed to FEMA and
(2) could not provide documentation of FEMA’s approval of TVA use of a markup rate to
recover its costs of administering the retiree subcontract. TVA management
subsequently instituted new procedures to correct the deficiencies identified by our
audit. Based on the new procedures, we determined TVA was generally in compliance
with federal guidelines pertaining to the billing and reimbursement for FEMA mission
assignments. However, we recommended FEMA provide written authorization for TVA
use of a specific markup to recover its costs of administering the retiree subcontract.




page 17                                                   October 1, 2006 ~ March 31, 2007
                                                                                    Audits



GENERAL ASSISTANCE

We provided advice to TVA management regarding (1) deficiencies in certain contracts,
(2) billings to other agencies, and (3) evaluations of contractor proposals. We also
provided assistance to OIG Investigations in various contractor investigations and fraud
risk assessments.


FINANCIAL-RELATED AUDITS

During this semiannual period, we completed four financial-related audits, one
attestation engagement, and testing of financial reporting controls over various
processes to assist with TVA’s initiative to comply with Section 404 of the Sarbanes-
Oxley Act of 2002 (SOX). Highlights of these audits follow.

 TVA contracted with the independent certified public accounting firm of

   PricewaterhouseCoopers LLP (PwC) to audit TVA’s balance sheets as of
   September 30, 2005 and 2006, and the related statements of income, changes in
   proprietary capital, and cash flows for each of the three years in the period which
   ended September 30, 2006. In addition, the contract called for the review of TVA’s
   quarterly financial information associated with the filing of its quarterly report on
   Form 10-Q with the Securities and Exchange Commission for the first quarter of
   FY 2007. The contract required that audit and related work be done in
   accordance with generally accepted government auditing standards. We reviewed
   PwC’s reports and related audit documentation, interviewed their representatives,
   and performed such other procedures as we deemed appropriate in the
   circumstances to provide reasonable assurance the audit and related work were
   performed in accordance with generally accepted government auditing standards.
   Our reviews disclosed no instances where PwC did not comply, in all material
   respects, with generally accepted government auditing standards.

 We surveyed TVA and financial institutions in the Tennessee Valley to identify

   (1) TVA-owned cash accounts not currently accounted for by TVA Treasury and
   (2) non-TVA-owned cash accounts set up in TVA’s taxpayer identification number




TVA Office of the Inspector General                                                   page 18
Audits



  (TIN). In summary, we identified (1) one certificate of deposit in TVA’s TIN not
  accounted for by TVA Treasury, (2) three non-TVA-owned accounts incorrectly set up
  in TVA’s TIN, (3) one account set up in TVA’s TIN without sufficient information to
  determine if TVA owned the funds, and (4) ten accounts reported as TVA or related
  accounts by one financial institution that would not confirm the TIN which were not
  listed by TVA Treasury as TVA-owned accounts. TVA Treasury agreed to follow up
  with the financial institutions regarding our findings.

 We reviewed TVA’s first Fuel Cost Adjustment (FCA) that went into effect January 1,

  2007. The objective of our review was to determine whether the FCA for the second
  quarter, FY 2007, was calculated correctly and in accordance with the agreed-upon
  methodology. In summary, we found the FCA was calculated correctly and in
  accordance with the agreed-upon methodology.

 We performed procedures agreed-upon with TVA management over the FY 2006

  performance measures and found (1) changes to the FY 2006 goals were properly
  approved with seven exceptions, two of which impacted the payout; (2) actual
  year-to-date inputs for each indicator agreed with the respective “reason for
  improvement” sheet; (3) actual inputs for the eight TVA-wide metrics agreed with the
  underlying support provided by the Strategic Business Units with one exception
  which did not impact the payout; and (4) the payout percentages were
  mathematically accurate.

 In support of TVA initiatives to comply with SOX, we completed 49 projects to test or

  retest financial reporting controls in 43 processes of the more than 70 key business
  processes determined to be in scope for SOX compliance. These projects were
  designed to provide the Vice President and Controller with information to assess
  TVA’s readiness to comply with SOX. We identified control deficiencies in over
  65 percent of the controls tested. The deficiencies included needed improvements
  in control design (about 45 percent), control not being performed as designed (about
  31 percent), and inadequate documentation retained to demonstrate the control
  operated in the period tested (about 24 percent). The process owners provided
  actions planned or taken to address the deficiencies identified.



page 19                                                     October 1, 2006 ~ March 31, 2007
                                                                                 Audits



IT AUDITS

During this semiannual period, we completed two audits in the IT environment
pertaining to (1) penetration testing for selected TVA network systems and
(2) remediation action for securing the general ledger database. In addition, we
completed four interim reviews for SOX readiness testing of IT general control areas and
issued a summary report for SOX readiness testing performed between March 2006
and January 2007.

In the penetration test, we noted improvements could be made to address weaknesses
in logical security controls designed to prevent unauthorized access to system
programs and data. Management generally agreed with our findings and either has
implemented or is in the process of implementing corrective actions.

In the remediation action audit and SOX readiness reviews, we noted either (1) controls
were operating effectively or (2) documentation and/or controls required some level of
remediation. Management generally agreed with our findings and either has
implemented or is in the process of implementing corrective action.




TVA Office of the Inspector General                                                page 20
Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources including (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from an ongoing inspection. During this semiannual period, we completed
seven inspections which identified over $15,000 in questioned costs. We also identified
various opportunities for TVA to improve program operations. Highlights of our
inspections follow.


INVENTORY ACCOUNTING PRACTICES

At the request of the TVA Chief Nuclear Officer and Executive Vice President, we
conducted a review of inventory accounting practices at BFN. Specifically, we were
requested to determine (1) whether proper accounting practices and TVA policies were
followed when returning material and components (i.e., spare parts) to inventory after
being removed from installed locations and (2) whether existing procedures provided
adequate guidance on returning spare parts to inventory. In summary, we found:

 Noncompliance with generally accepted accounting principles and TVA policies and

   procedures;

 TVA policies and procedures did not adequately address (1) how to account for the

   return of material/components to inventory from installed locations (i.e., spare parts)
   and (2) the inventory tracking of spare parts; and

 No indication of intent to manipulate the entries to achieve outage performance

   goals, although the circumstances could create an appearance to do so.


TVA management agreed with our findings and recommendations and has initiated or
plans to initiate corrective action.




page 21                                                    October 1, 2006 ~ March 31, 2007
                                                                         Inspections



DAILY COAL REPORTS

In support of the fraud risk assessment for Fuel Supply, Fossil Power Group, we
conducted an inspection regarding the accuracy of the Daily Coal Reports (DCR)
relating to nine fossil plants. The DCR is used to (1) identify variances between
vendor/terminal and TVA shipment weights and (2) graph the identified variances. The
objective of our review was to verify whether TVA and vendor/terminal shipment weights
were accurately entered into the respective DCR for the period December 1, 2005,
through May 3, 2006. In summary, we found:

 Of the 482 coal shipments tested from the 9 fossil plants, 33 shipments were not

   recorded in the DCR in accordance with TVA weight documentation and/or
   vendor/terminal bills of lading;

 Variances between vendor terminal weights and TVA shipment weights ranged from

   -31.42 to 60.69 percent, and the net effect of all variances showed that TVA
   received approximately 75,113 tons of coal less than were reported on the vendor/
   terminal bills of lading;

 Shipment weights for missing and/or extra rail cars were not consistently accounted

   for at plants receiving coal by rail;

 Missing and extra rail cars were not consistently tracked at all fossil plants receiving

   coal by rail; and

 Comments were not consistently noted on the DCR when TVA or vendor/terminal

   weights were not available or when exceptions existed for certain shipments.


TVA management agreed with our findings and recommendations and has initiated or
plans to initiate corrective action.


ROYALTY PAYMENT REVIEWS

At the request of the Coal Acquisition and Supply, Fossil Power Group, we initiated an
inspection to obtain and review information related to a coal company’s cost and
profitability assertions. The company leased land from TVA and paid TVA a royalty fee



TVA Office of the Inspector General                                                 page 22
Inspections



per ton on all coal removed from a mine which was on the leased premises. Due to
increased costs and reduced profitability, the company requested TVA to consider
revising the contract to reduce the royalty fee payments.

In summary, our review of selected financial and production report information and
supporting cost documentation pertaining to the TVA mine found (1) nothing to indicate
cost and profitability assertions were not accurate, (2) some costs and coal revenues
were a function of market conditions which impacted the company’s profitability, and
(3) the company began allocating costs on internal financial reports in August 2006
which more accurately depicted profitability. In addition, the company discovered
royalty fee payments were underpaid by approximately $15,000 when providing
requested information during our review.


INVENTORY MANAGEMENT SYSTEMS

We conducted a review to determine whether TVA’s inventory management system,
PassPort, accurately reflected the reported $14.3 million in inventory housed at the
Hartsville facility as of December 20, 2006. We compared PassPort data to physical
inventory on hand for 93 catalog identification numbers (CAT IDs). We found PassPort
accurately reflected the location and quantity on hand for 89, or 95.7 percent, of the
CAT IDs selected for review.

We also compared inventory on hand for 38 judgmentally selected CAT IDs to PassPort
and found (1) inventory held for use was commingled with surplus materials and
(2) materials were not always accurately reflected or were excluded in PassPort.
According to Procurement, it was waiting on plant direction for the disposition of
several materials housed at Hartsville, including some items corresponding to the CAT
IDs we reviewed.

Management agreed with our findings and has taken or plans to take appropriate
corrective action.




page 23                                                     October 1, 2006 ~ March 31, 2007
                                                                   Investigations



Summary of Representative Investigations

During the past six months, we closed 50 investigations based, in part, on allegations
and concerns received from ratepayers, TVA managers, TVA employees, contractor
employees, and OIG auditors. While our investigations in the past have largely been
reactive, we are implementing programs to develop a more proactive fraud detection
and prevention program. Below we discuss (1) our use of technology to more
proactively detect and prosecute fraud, (2) other proactive programs, (3) fraud risk
assessments, and (4) our support of law enforcement task forces.


USE OF TECHNOLOGY TO PROACTIVELY DETECT AND PROSECUTE FRAUD

Widespread use of and advances in technology create new and greater risks for TVA.
Conversely, data mining, cyber security, and computer forensics provide greater
opportunities for detecting and prosecuting fraud.

DATA MINING

Our data mining efforts can encompass every area electronic records are available,
including contracts, credit cards, medical payments, and workers’ compensation.
Some examples follow.

 We examine contract payment records for significant

   price changes over time, which may identify (1) artificially
   low bids to obtain a contract and (2) significant price
   differentials in the same commodity between vendors.
   We have opened several investigations as a result of
   these types of reviews.

 We periodically review TVA credit card charges for red flags, such as purchases on

   weekends or holidays and charges to certain merchant categories––pursuant to the
   Standards Industrial Classification Code––such as casinos, pet stores, and jewelry
   stores. We also compare charges to travel reimbursement to ensure the cardholder
   was in travel status when the card was being used outside the home base. In




TVA Office of the Inspector General                                               page 24
Investigations



   addition, we review use of government travel cards to identify prohibited personal
   use. Our reviews routinely identify questionable charges. For example, during this
   reporting period, we identified an individual whose travel card charges were twice as
   high as claimed travel expenses and included personal, prohibited charges. The
   employee was given a warning, and the employee’s travel card was suspended.

 Our review of medical payments has identified instances of prescription drug abuse.

   We look for individuals who obtained prescriptions for the same drug from more than
   one doctor and/or obtained refills at multiple pharmacies. We also look for doctors
   or pharmacies which seem to be overprescribing certain Schedule II or III drugs such
   as Oxycontin and Hydrocodone.

 In the workers’ compensation area, we analyze information and use routines to

   identify individuals who may be receiving benefits they are not entitled to. These
   routines include identifying individuals who (1) may need to return to work because a
   court order has reduced their available income, (2) use only post office boxes,
   (3) have minimal medical payments, or (4) move a substantial distance from where
   the injury occurred. We also look for excessive prescription narcotic drug use.

CYBER SECURITY CONFERENCE

We helped host the second Cyber Security Summit in Knoxville, Tennessee, with the
Federal Bureau of Investigation (FBI), The University of Tennessee, and TVA IT Security.
This summit brought together security professionals from academia, government, and
private industry. Topics included the state of incident response, analyzing malicious
code, emerging cyber threats, and a roundtable discussion on the United States
fighting the cyber war.

The importance of cyber security cannot be overemphasized. In making October the
National Cyber Security Awareness Month, Congress noted:

 The importance of the internet to individuals and businesses;

 How our nation’s critical infrastructures rely on the secure and reliable operation of

   our information networks;



page 25                                                    October 1, 2006 ~ March 31, 2007
                                                                     Investigations



 That cyber security is a critical part of our nation’s overall homeland security;

 That terrorists and others have demonstrated an interest in utilizing cyber means to

   attack our nation; and

 That national organizations, policymakers, government agencies, private sector

   companies, nonprofit institutions, schools, academic organizations, consumers, and
   the media all recognize the need to increase awareness of computer security and
   enhance our level of computer and national security in the United States.


Attacks against private and public networks show no signs of abating. Whether the
attacks are simple or sophisticated, they cause (1) damage to user confidence,
(2) privacy violations, and (3) significant economic losses. During this reporting period,
for example, we worked with the United States Computer Emergency Readiness Team
in responding to a possible intrusion into the TVA system.

COMPUTER FORENSICS

We have a computer lab and expertise which allows us to search and recover
information on computers or networks which may have been used to perpetrate a
crime. We also participate in incident responses and network monitoring. For example,
one investigation during this reporting period found a contractor employee was using
Peer-to-Peer software on his TVA computer in violation of TVA policy. His downloads
included music and pornographic movies. The contractor employee was terminated.




TVA Office of the Inspector General                                                   page 26
Investigations



OTHER PROACTIVE PROGRAMS

Our efforts to reach out to employees and others include creating a design for the OIG
hotline, Empowerline; a reward program; and reaching out to employees and others to
make the OIG more accessible.

EMPOWERLINE

Employees, contractors, and the general public can report suspected fraud, waste, or
abuse affecting TVA to the OIG-sponsored hotline system, Empowerline. Empowerline
                is administered by a third-party contractor and can be reached 24 hours
                a day, 7 days a week, either by a toll-free phone call or over the web.
                Individuals who report concerns can do so anonymously or they can
                request confidentiality. They also can use Empowerline to track the
                outcomes of concerns they report. This outsourced system offers a
                convenient mechanism for individuals to report their concerns and
                provide assurance they can remain anonymous or maintain
                confidentiality.

REWARD PROGRAM

Under our reward program, a source of information (“source”) may receive a cash
reward for disclosing to the OIG information about criminal or unlawful activities
involving TVA programs and personnel. To apply for a reward, a source must provide
substantial information not previously known to the OIG that leads to a felony charge or
a substantial monetary recovery from an individual who defrauded a
TVA program. Rewards, which are solely within the discretion of the
IG, may be given to any person except current and former OIG
employees and employees of other law enforcement agencies.




page 27                                                    October 1, 2006 ~ March 31, 2007
                                                                                Investigations



    OUTREACH PROGRAM

    Our outreach program includes (1) designating Knoxville-based special agents for each
    TVA plant; (2) assigning one agent to Kentucky, one to Chattanooga, Tennessee, and
    two to northern Alabama; (3) visiting TVA facilities; and (4) introducing new employees to
    the OIG through TVA’s orientation program and a letter from the IG.

    Our 2005 survey of TVA employees and contractors, as well
    as other input, indicated that some individuals were not
    familiar with the OIG or what constitutes fraud. As a result,
    the OIG is determined to increase awareness of its
    mission––to assist employees, contractors, and the public in             Paul Houston and Ryan Wilson, stationed at BFN,
                                                                              serve northern Alabama and central Tennessee.
    identifying and reporting fraud. Training all new TVA
    employees is crucial in this effort. We introduce all new TVA employees to the OIG and
                           their responsibility to report suspected fraud. We send each new
                           employee a letter welcoming them to TVA and explaining the OIG
                           function. There also is a section in the New Employee Orientation
                           program devoted to the role of the OIG. New employees watch a video
                           introduction by the IG addressing the need to be vigilent for those who
Craig Yates, assigned to
   Mayfield, Kentucky,     would victimize TVA or otherwise improperly profit from their relationship
provides coverage of the
  northern Tennessee       to TVA. New employees also receive training on their responsibility to
       Valley area.

                           cooperate with the OIG.


    FRAUD RISK ASSESSMENTS

    We work with TVA management to conduct fraud risk assessments (FRA) of major
    processes throughout TVA. An FRA is a process for management and business
    process owners to identify and analyze fraud risk factors that may be common to
    general business practices and also specific to the organization and its operations. The
    OIG serves as facilitator and consultant during the FRA process. This process is
    intended to identify (1) types of fraud which can occur, (2) the likelihood and significance
    of fraud occurring, (3) the controls in place to prevent fraud, and (4) actions needed to




     TVA Office of the Inspector General                                                             page 28
Investigations



improve fraud-preventive controls. As part of this process, we provide fraud
awareness training.

During this reporting period, we completed an FRA in Bulk Power Trading, including
processes used to buy and sell power, analyze power needs, construct strategic power
purchasing plans, and procure and protect information systems. There were 5 fraud
risk areas identified and 24 possible fraud schemes considered. Based on an
evaluation of the controls in place to prevent the fraud schemes, one recommendation
was made. That recommendation was to strengthen internal controls by requiring Bulk
Power Trading employees to complete an annual confidential financial disclosure report.


WORKERS’ COMPENSATION FRAUD

This reporting period’s results involving workers’ compensation include elimination,
suspension, and reduction of benefits. The total long-term savings and recoveries to
TVA from three cases discussed below, including amounts attributable to this and prior
reporting periods, are projected to exceed $1.4 million.

          In order to receive workers’ compensation benefits under the Federal
          Employees’ Compensation Act (FECA), a recipient must periodically submit
          disclosure forms to the United States Department of Labor, Office of Workers’
          Compensation Programs (OWCP), which requires the recipient to report all
          employment, including self-employment, in which the recipient has participated
          during the time periods covered by the forms. OWCP uses those reports to
          assist in determining whether an individual has a continuing entitlement. Our
          workers’ compensation investigations focus on individuals’ failures to report
employment. While there are other types of workers’ compensation fraud, such as
claiming an injury occurred on the job when it occurred elsewhere, most of our cases
involve someone lying to continue receiving benefits.

We previously reported that a former TVA Nuclear employee pled guilty to one count of
filing a false statement to obtain benefits under the FECA, namely that he falsely
reported to OWCP during April 2003 that he was not employed or self-employed when,




page 29                                                    October 1, 2006 ~ March 31, 2007
                                                                     Investigations



in fact, he was employed as a truck driver. Because any individual convicted of
committing fraud in connection with the application for or receipt of workers’
compensation benefits loses his entitlement to any future benefits, his benefits were
stopped, saving TVA an estimated $501,322. During this reporting period, the former
employee was sentenced to five years’ probation and ordered to pay $5,005 in
restitution. OWCP declared a forfeiture on an additional $27,608 in benefits he
received.

The FECA also provides that individuals who are incarcerated based on a felony
conviction cannot receive benefits while incarcerated, although eligible dependents
could receive compensation at a reduced rate.

 We identified individuals in western Kentucky who were receiving total disability

   benefits, but records showed they incurred limited medical expenses. We
   determined that one of those individuals was serving a 20-year prison sentence for
   attempted robbery. That individual’s benefits were suspended while he is
   incarcerated. The projected long-term savings to TVA total $515,320; we also
   recovered $9,886 in previously issued workers’ compensation checks.

 Our investigation of a former TVA fossil plant employee receiving workers’

   compensation benefits revealed the individual was incarcerated due to a conviction
   for felony narcotic violations and sentenced to 60 months in federal prison. While
   his dependents will continue to receive compensation, his benefits were suspended
   while he is incarcerated, saving TVA over $80,000.

TASK FORCES

We recognize the importance of sharing investigative resources and information with
other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this reporting period, we continued
to provide investigative resources to the Environmental Crimes Joint Task Force, the
Joint Terrorism Task Force, and the Health Care Fraud Task Force.




TVA Office of the Inspector General                                                page 30
Investigations



ENVIRONMENTAL CRIMES JOINT TASK FORCE

The Environmental Crimes Joint Task Force, sponsored by the United States Attorney
for the Eastern District of Tennessee, is comprised of members from numerous federal
and state agencies. Our participation on this task force supports TVA’s goal of
supporting a thriving river system. During this reporting period, task force results
include the following.

 During December 2006, a subcontractor providing waste management services at a

   Department of Energy facility in Tennessee pled guilty to a misdemeanor charge of
   violating the Rivers and Harbors Act following the release of
   waste water containing radionuclides from a settling pond.
   The company was sentenced to pay a $10,000 fine and to
   make $290,000 in restitution to be used for remediation and
   education and protection to improve and enhance the natural
   environment in Tennessee, including Anderson County where
   the violation occurred.

 A former Waste Water Treatment Plant operator pled guilty to one count of making a

   material false statement in a document required to be filed and maintained under the
   Clean Water Act. The former operator falsified entries on the Monthly Operating
   Report and Discharge Monitoring Report. The falsified Discharge Monitoring Report
   was filed with the Tennessee Department of Environment and Conservation.

JOINT TERRORISM TASK FORCE (JTTF)

We continued our participation on the JTTF, led by the FBI’s Knoxville Field Division.
Because of TVA’s critical, energy-related infrastructure, we have devoted one special
agent full-time to the task force and have committed audit support on an as-needed
basis. As previously stated by FBI Director Robert S. Mueller, “the JTTFs have played a
central role in virtually every terrorism investigation, prevention, or interdiction within the
United States . . . JTTFs team up FBI agents with police officers, members of the
Intelligence Community, Homeland Security, and other federal partners to coordinate




page 31                                                       October 1, 2006 ~ March 31, 2007
                                                                   Investigations



counterterrorism investigations and share information. They are also a critical conduit
between the FBI and the officer on the beat.”

HEALTH CARE FRAUD TASK FORCE

We continued our participation on the Health Care Fraud Task Force sponsored by the
United States Attorney for the Eastern District of Tennessee. TVA operates a
self-insured health benefits plan, and claims of health care fraud involving TVA and
others are investigated by this task force. The task force includes representatives from
the investigative arms of federal, state, and local agencies, and the BlueCross
BlueShield Tennessee Special Investigations Unit.




TVA Office of the Inspector General                                               page 32
Investigations




                                                                   Closed Cases by Area
                                                                         T o t al = 5 0


                                                                             R i v e r Sy s t e m
                                                                                                           Po w e r
                                                                             O p e ra t i o n s &
                                                                                                          Sy s t e m
                         A d m i n i s t ra t i v e                          E n v i ro n m e n t
                                                                                                        O p e ra t i o n s
                             S e rv i c e s                                           6%
                                                                                                              8%
                                 24%



                                                                                                                                  F o s s i l Po w e r
                          O t h er                                                                                                     G ro u p
                          12%                                                                                                            28%
                                                                            T V A N u cl ear
                                                                                 22%




                                                                 Concerns OIG Received
                                                                       T o t al = 8 5


                                                                                                                                  T h e ft /
                                                                                                    W as t e/                D e s t ru c t i o n /
                                             D i s c ri m i n a t i o n /
                                                                                                    Ab u s e                  C o m pu t e r
                                                    R e p ri s a l
                                                                                                       5                         C ri m e s
                                                         18
    E n v i ro n m e n t a l                                                                                                           3
           C ri m e s
                3
                                                                                                                                            E t h i cs I s s u es /
                                                                                                                                                E m pl o y e e
                                                                                                                                              M i s c o n du c t
                   O t h er                                                                                                                           24
                    13
                                     F a l s i fi c a t i o n                                              Ac c o u n t i n g /
                                                 of                            F ra u d
                                                                                                              I n t e rn a l
                                        R e c o rd s                              12
                                                                                                             C o n t ro l s
                                                  3                                                                  4




page 33                                                                                                             October 1, 2006 ~ March 31, 2007
                                              Legislation and Regulations



We are responsible under the IG Act for reviewing proposed legislation
and regulations that relate to the programs and operations of TVA.
Although TVA’s Office of General Counsel reviews proposed or enacted
legislation that could affect TVA activities, the OIG independently follows
and reviews proposed legislation that affects the OIG and/or relates to
waste, fraud, and abuse in TVA programs or operations.

During this reporting period the Accountability in Government Contracting Act of 2007,
S. 680, currently pending in the Senate Committee on Homeland Security and
Governmental Affairs, and its companion bill, H.R. 1362, passed by the House on
March 15, 2007, are major pieces of legislation being followed by the TVA OIG.

Among other items, as currently proposed, the Senate version of the Accountability in
Government Contracting Act of 2007 contains several amendments to the IG Act. We
generally support those provisions, which we believe will improve OIG operations. The
House version, however, does not contain these provisions. IG Richard Moore is a
member of the PCIE Legislation Committee and is working with the Committee to
ensure the position of the IG community is communicated to both houses of Congress.




TVA Office of the Inspector General                                              page 34
page 35   October 1, 2006 ~ March 31, 2007
    APPENDICES




TVA Office of the Inspector General   page 36
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     34


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         15-32


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         15-32


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            15-32


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 37                                                                      October 1, 2006 ~ March 31, 2007
                                                                                            Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                    QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                          COSTS       COSTS     BETTER USE

CONTRACT

2006-016C*
11/20/06           Review of TVA’s Contract with
                   National Emergency Assistance           $116,488            $116,488

2006-015C
12/18/06           Mitsui Babcock                           886,178                1,816

2007-002C
12/19/06           Pre-award Audit of Bechtel Power
                   Corporation’s Proposal for DSEP
                   Services at WBN                                                                 $403,475

2006-036C
01/17/07           Compliance Audit of TRC Garrow
                   Associates, Inc.                           4,964                  895

2006-022C*
01/25/07           Henkels & McCoy, Inc. - Contract
                   No. 0028496 - Compliance Audit            58,448                  406

2006-038C
01/26/07           Stone & Webster Construction, Inc. -
                   Contract No. 14703 - Review of
                   Indirect Markup Rates                                                          8,510,000

2006-011C*
01/31/07           Review of TVA Contract No. 28499
                   With Dillard Smith Construction
                   Company                                  186,378                5,716

F I NA N C I A L

2006-040F*
12/18/06           Review Of PricewaterhouseCoopers’
                   Audit of the TVA FY 2006 Financial
                   Statements

2007-018F
02/14/07           SOX Readiness Testing for
                   Perform Closing

2007-025F
02/15/07           Audit Of PricewaterhouseCoopers’
                   Review of TVA’s 1st Quarter FY 2007
                   Financial Statements

2005-062F
03/14/07           TVA’s Financial Reporting Controls -
                   SOX Readiness Testing




* These reports or a summary can be found on our web page http://insidenet.tva.gov:8042/2007audits.html.




TVA Office of the Inspector General                                                                        page 38
Appendix 2



AUDIT REPORT
NUMBER                                                     QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                           COSTS       COSTS     BETTER USE

INFORMATION TECHNOLOGY
2006-034T-02
10/23/06           Security of TVA’s Network Perimeter -
                   Blue Level Testing

2007-021T
01/30/07           Remediation Testing of Login Trigger
                   Implementation for IBS Databases

2006-014T
02/15/07           IT General Controls - SOX
                   Readiness Testing

PERFORMANCE

2007-003F*
10/27/06           Agreed Upon Procedures for TVA
                   FY 2006 Performance Measures

2006-039C*
01/26/07           Review of TVA’s Controls Over the
                   Execution of FEMA’s Mission
                   Assignments

2007-005F*
03/15/07           Identification of TVA’s Cash Accounts

2007-017F*
03/15/07           Review TVA’s Fuel Cost Adjustment
                   Process

TOTAL              18                                     $1,252,456          $125,321          $8,913,475


* These reports or a summary can be found on our web page http://insidenet.tva.gov:8042/2007audits.html.




page 39                                                                   October 1, 2006 ~ March 31, 2007
                                                                                                Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                        QUESTIONED COSTS
                                                                NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period                2                 $550,807             $125,941

B.   Which were issued during the reporting period                   5               $1,252,456             $125,321

Subtotals of A and B                                                7               $1,803,263             $251,262

C.   For which a management decision was made during
     the reporting period                                            7*              $1,803,263             $251,262

     (i) Dollar value of disallowed costs                            7               $1,429,334             $251,262

     (ii) Dollar value of costs not disallowed                       3                 $373,929                    $0

D.   For which no management decision has been made by
     the end of the reporting period                                 0                        $0                   $0

E.   For which no management decision was made within
     six months of issuance                                          0                        $0                   $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
  and not disallowed by management.




TVA Office of the Inspector General                                                                           page 40
Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                                            NUMBER               DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                            2                    $6,836,000

B.   Which were issued during the reporting period                               2                    $8,913,475

Subtotals of A and B                                                             4                 $15,749,475

C.   For which a management decision was made during
     the reporting period                                                        3*                   $7,239,475

     (i) Dollar value of costs agreed to by management                           3                    $4,533,774

     (ii) Dollar value of costs not agreed to by management                      2                    $2,705,701

D.   For which no management decision has been made by
     the end of the reporting period                                             1                    $8,510,000

E.   For which no management decision was made within
     six months of issuance                                                      0                             $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs agreed to
  and not agreed to by management.




page 41                                                                      October 1, 2006 ~ March 31, 2007
                                                                                                   Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions stemming from one contract compliance, two operational, one financial, and six IT audits are not
complete; however, corrective action is underway and scheduled for completion in accordance with the current revised
milestones.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION



2001-074T                Application Review of Pegasys
01/07/02                 This report contained recommendations regarding facility access control. Implementation of the
                         new access control system is underway and is expected to be complete in 2008.

2003-004C                A&G Tree Service, Inc.
03/30/04                 TVA asserted a claim against A&G for $638,542 for unsupported billings under the contract. A
                         formal Contracting Officer’s Decision was rendered in March 2005 that concurred with our audit
                         findings and TVA’s claim and directed A&G to reimburse TVA for overpayments of $638,542
                         under a closed contract. During May 2005, TVA stopped A&G from performing work under a
                         subsequent contract and recovered part of TVA’s damages by withholding payments totaling
                         $88,362 on invoices under the subsequent contract. A&G filed two lawsuits against TVA (1) for
                         the payments withheld and (2) to appeal the Contracting Officer’s Decision. The timeframe for
                         resolution of these lawsuits is indeterminate.

2003-040T                Nuclear Plant IT Security
03/30/04                 This report included recommendations to strengthen logical and physical controls at a nuclear
                         generation facility. TVA management has completed remediation action on all but one
                         recommendation which is targeted for completion by September 30, 2007.

2005-009T                Review of TVA’s Information Factory Application, Access, and General Controls
06/30/05                 This report included recommendations to strengthen control over the system. TVA
                         management is implementing planned remediation action for the three open recommendations
                         which are expected to be complete by June 30, 2007.

2005-012T                Integrated Business System Application, Access, and General Controls
06/30/05                 This report included recommendations to strengthen control over the general ledger system.
                         Remediation was completed on 12 recommendations. TVA management is implementing
                         planned remediation actions for the remaining four items which are expected to be complete by
                         April 13, 2007.

2005-034F                Internal Controls Over Time Reporting
01/30/06                 The Controller agreed to rewrite Accounting Procedure 14 to emphasize specific information
                         applicable to role definitions, expectations and accountability, and continued periodic refresher
                         training for System Administrators (SAs), as well as implement a mandatory on-line training
                         module for the SAs. The Controller is currently developing SOX documentation related to the
                         time reporting process. This documentation, which is expected to address these issues, is to
                         be complete in June 2007.

2005-039T                eWorkplace Application, Access, and General Controls
01/30/06                 This report included 15 recommendations to strengthen control over the time reporting system.
                         Weaknesses were identified in processing controls, direct data changes, logical access
                         controls, change management, and backup and contingency planning. TVA management has
                         completed remediation action on 12 recommendations and is implementing planned actions for
                         the remaining 3 recommendations. Actions are expected to be complete by June 30, 2007.




TVA Office of the Inspector General                                                                              page 42
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2005-052F      Follow-up Review of TVA’s Hospitality Program
02/23/06       The Controller agreed with our recommendation to revise Business Practice 7 and will include
               specific reference to form TVA 17901 and use of the purchasing card for hospitality spending.
               Responsibility for this action was transferred to Human Resources. To date, the finding is not
               remediated. The OIG is currently performing a routine review of the hospitality program.

2005-055T      Integrated Contractor System Logical Access and General Controls
01/24/06       This report contained 13 recommendations to strengthen logical access and general controls
               over TVA’s Integrated Contractor System. TVA management agreed with our
               recommendations. Remediation for six recommendations is complete, and the remaining
               recommendations are targeted for remediation by June 30, 2007.

2005-059F      Summary of SOX Process and Controls Documentation Reviews
12/06/05       The Chief Financial Officer (CFO) organization agreed to implement changes to various business
               processes and update related documentation in the Risk Control Tracking System to implement
               our recommendations. The CFO organization is tracking planned process changes in the
               Summary of Aggregated Gaps Report. The planned improvements are to be complete
               in FY 2007.




page 43                                                             October 1, 2006 ~ March 31, 2007
                                                                                              Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                   6
          Subjects Referred to State/Local Authorities                                          1


Results

          Subjects Indicted                                                                     2
          Subjects Convicted                                                                    2
          Referrals Declined                                                                    3




* These numbers include task force activities and joint investigations with other agencies.




TVA Office of the Inspector General                                                                 page 44
Highlights



                                               MAR 31,        SEPT 30,        MAR 31,           SEPT 30,    MAR 31,
                                                2007            2006           2006               2005       2005

AUDITS
AUDITS IN PROGRESS
Carried Forward                                   16              20*             24                30         28
Started                                           42              23              22                41         35
Canceled                                           (4)             (1)             (3)             (11)         (2)
Completed                                        (18)            (26)            (22)              (29)       (31)
In Progress at End of Reporting Period            36              16              21                24*        30

AUDIT RESULTS (Thousands)
Questioned Costs                               $1,252         $1,411          $774              $6,422      $8,859
Disallowed by TVA                               1,429            782          1,122              4,969       7,586
Recovered by TVA                                  695            793          1,641              5,016**     2,312

Funds to Be Put to Better Use                  $8,913        $10,839           $700             $5,634     $24,306
Agreed to by TVA                                4,534          2,790            633              1,251      20,181
Realized by TVA                                 3,603          2,287            740              6,002       7,886

OTHER AUDIT-RELATED PROJECTS
Completed                                      12                 11             11                 10          3
Cost Savings Identified/Realized (Thousands) $103                 $0            $36                 $0         $0


I N V E S T I G AT I O N S * * *
INVESTIGATION CASELOAD
Opened                                            73             70              80                84          84
Closed                                            50            105              71                84         103
In Progress at End of Reporting Period           148*           113             148*              157         157

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                      $332.5         $643.1        $2,966.5           $1,880.3      $216.3
Savings                                           87.9         1,038.7        1,625.4               36       1,581.5
Fines/Penalties                                   10.2              .5            6.2                6.7          .4

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                             5            16              17                10         11
Actions Taken (# of Subjects)                        4             6               9                13         16
Counseling/Management
   Techniques Employed (# of Cases)                      7        14              14                16         12

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                             6             3                5                8         12
Indicted                                             2             1                3                4          3
Convicted                                            2             1                3                5          4

INSPECTIONS
Completed                                          7              20              14               13          14
Cost Savings Identified/Realized (Thousands)     $15              $0              $0             $118          $0

  * Adjusted from previous semiannual report.
 ** Includes excess funds recovered by TVA of $33,219.
*** These numbers include task force activities and joint investigations with other agencies.




page 45                                                                         October 1, 2006 ~ March 31, 2007
OIG LEADERSHIP PHILOSOPHY
        The TVA OIG strives to be a high performing
        organization made up of dedicated individuals
        who are empowered, motivated, competent, and
        committed to producing high quality work that
        improves TVA and life in the Valley.

        Each of us has important leadership,
        management, team, and technical roles.

        We value integrity, people, open communication,
        expansion of knowledge and skills, creative
        problem solving and collaborative
        decisionmaking.
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
